                            NATIONAL SCIENCE FOUNDATION
                                   4201 Wilson Boulevard
                                 ARLINGTON, VIRGINIA 22230




    OFFICE OF
INSPECTOR GENERAL

MEMORANDUM

Date:         April 27, 2012

To:           Jeffrey M. Lupis, Director
              Division of Acquisition and Cooperative Support

From:         Dr. Brett M. Baker /s/
              Assistant Inspector General for Audit

Subject:      NSF OIG Audit Report No. 12-1-004
              Institute for Defense Analyses


At the request of the NSF Director, we contracted with the Defense Contract Audit Agency’s
(DCAA), Chesapeake Branch Office to perform an audit of NSF Contract Number OIA-0408601
awarded to the Institute for Defense Analyses (IDA). The audit determines the allowability of
NSF-funded direct costs claimed for the contractor’s fiscal years 2004 to 2010 totaling
$31,433,483 for the award. IDA, a non-profit corporation, operates the Science and Technology
Policy Institute (STPI), a Federally Funded Research and Development Center (FFRDC), which
provides independent technical analysis and advice to the Office of Science and Technology
Policy (OSTP) within the Executive Office of the President as well as other federal agencies.
Except for $26,957 of questioned NSF-funded costs, the auditors determined that the costs
claimed by IDA under the NSF award are acceptable as adjusted by DCAA’s examination.

Specifically, the auditors questioned $24,822 of direct costs claimed under the NSF contract.
The questioned direct costs are $22,737 for travel costs ($21,714 for unreasonable coach class
airfare costs and $1,023 in unsupported travel costs); and $2,085 for unsupported materials
expenses. The auditors also questioned a total of        in associated indirect costs (      for
FYs 2004 through 2007 based on final indirect cost rates and        for FYs 2008 through 2010
based on provisional indirect costs). Therefore, the total direct and indirect costs questioned
under this report are          ($224 of the $24,822 questioned direct costs were included and
questioned in IDA’s FY 2010 OMB Circular A-133 report) .

We recommend that the NSF Director of the Division of Acquisition and Cooperative Support
resolve the questioned costs identified in the audit report.
IDA did not agree with the questioned travel costs or the methodology the auditor used to
determine reasonable costs. The IDA response is described after the findings and
recommendations in the audit report and is included in its entirely in Appendix 1.


We are providing copies of this memorandum to the Assistant Director, Directorate for
Mathematical and Physical Sciences and to the Contracting Officer’s Representative in that
Directorate. The responsibility for audit resolution rests with the Division of Institution and
Award Support, Cost Analysis and Audit Resolution Branch (CAAR). Accordingly, we ask that
no action be taken concerning the report’s findings without first consulting CAAR at 703-292-
8244.

OIG Oversight of Audit

To fulfill our responsibilities under Government Auditing Standards, the Office of Inspector
General:

      •   Reviewed DCAA’s approach and planning of the audit;
      •   Reviewed DCAA’s process for evaluating the qualifications and independence of the
          auditors;
      •   Monitored the progress of the audit at key points;
      •   Coordinated periodic meetings with DCCA and NSF officials, as necessary, to discuss audit
          progress, findings, and recommendations;
      •   Reviewed the audit report, prepared by DCAA to ensure compliance with Government
          Auditing Standards; and
      •   Coordinated issuance of the audit report.

DCAA is responsible for the attached auditor’s report on IDA and the conclusions expressed in
the report. The NSF OIG does not express any opinion on IDA’s incurred cost submissions, the
indirect rate applications, or the conclusions presented in DCAA’s audit report.

We thank your staff for the assistance that was extended to our auditors during this audit. If you
have any questions regarding this report, please contact Jannifer Jenkins at 703-292-4996.




Attachment: DCAA Audit Report No. 6171-2011N17900001, Independent Audit of Institute for
Defense Analyses Fiscal Year 2004 to 2010 Incurred Direct Costs for its NSF FFRDC Contract
No. OIA-0408601: dated April 11, 2012.


cc:       Edward Seidel, Assistant Director, MPS/OAD
          Susan Hamm, MPS/OAD, Contracting Officer Representative




                                                  2
